HHS/OIG-AUDIT--Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the District of Columbia Department of Human Services
(A-06-95-00064)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the District of Columbia Department of Human Services," (A-06-95-00064)
January 31, 1997
Complete
Text of Report is available in PDF format (918K). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
At the request of the Health Care Financing Administration (HCFA), the Office
of Inspector General (OIG) conducted a nationwide review of pharmacy acquisition
costs for drugs reimbursed under the Medicaid prescription drug program. Since
most States reimburse pharmacies for Medicaid prescriptions using a formula which
discounts the average wholesale price (AWP), the objective of our review was to
develop an estimate of the discount below AWP at which pharmacies purchase brand
name and generic drugs.
To accomplish our objective, we selected a random sample of 11 States from a universe
of 48 States and the District of Columbia. Arizona was excluded from the universe
of States because the Medicaid drug program is a demonstration project using prepaid
capitation financing and Tennessee was excluded because of a waiver received to
implement a statewide managed care program for Medicaid. The District of Columbia
was one of the sample States selected, as well as California, Delaware, Florida,
Maryland, Missouri, Montana, Nebraska, New Jersey, North Carolina, and Virginia.
Additionally, we selected a sample of Medicaid pharmacy providers from each State
and obtained invoices of their drug purchases. The pharmacies were selected from
each of five categories--rural-chain, rural-independent, urban-chain, urban-independent
and non-traditional pharmacies (nursing home pharmacies, hospital pharmacies, etc.).
We included the non-traditional category so as to be able to exclude those pharmacies
from our overall estimates. We believed such pharmacies purchase drugs at substantially
greater discounts than retail pharmacies, and including them would have inflated
our percentages.
We compared each invoice drug price to AWP for that drug and calculated the percentage,
if any, by which the invoice price was discounted below AWP. We then projected
those differences to the universe of pharmacies in each category for each State
and calculated an overall estimate for each State. Additionally, we projected the
results from each State to estimate the nationwide difference between AWP and invoice
price for each category.
In the District of Columbia, we obtained pricing information from 13 District
of Columbia pharmacies. Specifically, we obtained 343 invoice prices for brand
name drugs, and 156 invoice prices for generic drugs. For the District of Columbia,
the overall estimate of the extent that invoice prices were discounted below AWP
was 17.3 percent for brand name drugs and 43.8 percent for generic drugs. The national
estimates are 18.3 percent and 42.5 percent, respectively. The national estimates
combine the results for four categories of pharmacies including rural-chain, rural-independent,
urban-chain and urban-independent. The District of Columbia estimates do not include
any rural categories as the District has no rural areas. The estimates exclude
the results obtained from non-traditional pharmacies.
We are recommending that the District of Columbia Department of Human Services
(District) consider the results of this review as a factor in any future changes
to pharmacy reimbursement for Medicaid drugs. We will share the information with
HCFA from all 11 States in a consolidation report for their use in evaluating the
overall Medicaid drug program.
The Commissioner of the District Commission of Health Care Financing responded
to our draft report in a letter dated November 26, 1996. While the Commissioner
had some concerns about the report, he stated that the District would consider
the results of our review when contemplating future changes to the pharmacy reimbursement
for Medicaid drugs. The complete text of the Commissioner's comments are included
in Appendix 4.